                         U.S. Department of Agriculture

                            Office of Inspector General
                             Financial & IT Operations




              Audit Report

Statement on Auditing Standards No. 70 Report
on National Finance Center General Controls –
               Fiscal Year 2009




                               Report No. 11401-30-FM
                                      September 2009
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




September 25, 2009



REPLY TO
ATTN OF:      11401-30-FM

TO:           Evan Segal
              Chief Financial Officer
              Office of the Chief Financial Officer

THROUGH: Kathleen A. Donaldson
         Audit Liaison Officer
         Office of the Chief Financial Officer

FROM:         Robert W. Young                       /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Statement on Auditing Standards No. 70 Report on National Finance Center
              General Controls – Fiscal Year 2009


This report presents the results of our Statement on Auditing Standards (SAS) No. 70 audit at the
National Finance Center (NFC) for fiscal year 2009. The audit was conducted in accordance
with Government Auditing Standards issued by the Comptroller General of the United States and
the American Institute of Certified Public Accountants standards that are commonly referred to
as a SAS No. 70 audit. This report contains an unqualified opinion and does not contain
recommendations. The projection of any conclusions based on our audit findings to future
periods are subject to the risk that changes may alter the validity of such conclusions. This
report is intended solely for the management of NFC, its customer agencies, and their auditors.

We appreciate the courtesies and cooperation extended to us during this review.
Executive Summary
Statement on Auditing Standards No. 70 Report on National Finance Center General
Controls – Fiscal Year 2009 (Audit Report No. 11401-30-FM)

Results in Brief               This report presents the results of our Statement on Auditing Standards (SAS)
                               No. 70 audit on the U.S. Department of Agriculture’s (USDA) National
                               Finance Center (NFC) for fiscal year 2009. Our objectives were to perform
                               procedures necessary to express opinions about whether (1) NFC’s
                               description of controls presents fairly, in all material respects, the aspects of
                               NFC controls that may be relevant to a customer agency’s internal control as
                               it relates to an audit of financial statements; (2) the controls included in the
                               description were placed in operation and suitably designed to achieve the
                               associated control objectives, if those controls were complied with
                               satisfactorily; and (3) the controls we tested were operating with sufficient
                               effectiveness to provide reasonable, but not absolute, assurance that the
                               associated control objectives were achieved during the period from July 1,
                               2008, through June 30, 2009.

                               In our opinion, NFC’s description of controls presented fairly, in all material
                               respects, the relevant aspects of NFC controls and controls of NFC’s
                               subservice organizations. Also, in our opinion, the controls included in the
                               description were suitably designed and operating with sufficient effectiveness
                               to provide reasonable assurance that associated control objectives would be
                               achieved if customer agencies and subservice organizations applied the
                               controls contemplated in the design of NFC’s controls.

                               Our examination did not extend to the control activities related to Human
                               Capital Management System (commonly referred to as EmpowHR) that the
                               USDA National Information Technology Center (NITC) performs for NFC.1


Recommendations
In Brief                       We do not make any recommendations in this report.




1
  NITC control activities were evaluated in our SAS No. 70 Audit for NITC (Audit Report No. 88501-13-FM, Statement on Auditing
Standards No. 70 Report on the National Information Technology Center General Controls Review – Fiscal Year 2009, issued September
2009.)
USDA/OIG-A/11401-30-FM                                                                                                   Page i
Abbreviations Used in This Report


CIO                 Chief Information Officer
COOP                continuity of operations plan
DRP                 disaster recovery plan
EmpowHR             Human Capital Management System
FIPS                Federal Information Processing Standard
FPS                 Federal Protection Services
GESD                Government Employees Services Division
IT                  information technology
NFC                 National Finance Center
NITC                National Information Technology Center
PIA                 privacy impact assessment
PPS                 Payroll/Personnel System
PSD                 position sensitivity designation
SAS                 Statement on Auditing Standards
SETS                Security Entry and Tracking System
SSP                 system security plan
ST&E                security test and evaluation
T&A                 time and attendance
USDA                U.S. Department of Agriculture
VPN                 virtual private network




USDA/OIG-A/11401-30-FM                                        Page ii
Table of Contents

Executive Summary ................................................................................................................................. i 

Abbreviations Used in This Report ....................................................................................................... ii 

Report of the Office of Inspector General ............................................................................................ 1 

Exhibit A –Description of Controls Prepared By National Finance Center ..................................... 3 

Exhibit B – Office of Inspector General - Review of Selected Controls .......................................... 28 




USDA/OIG-A/11401-30-FM                                                                                                                    Page iii
                             UNITED STATES DEPARTMENT OF AGRICULTURE
                                           OFFICE OF INSPECTOR GENERAL

                                                  Washington D.C. 20250




Report of the Office of Inspector General
TO:      Evan Segal
         Chief Financial Officer
         Office of the Chief Financial Officer

We have examined the accompanying description of the controls referenced in exhibit A for the U.S.
Department of Agriculture’s (USDA) National Finance Center (NFC) and its subservice organizations
other than the USDA National Information Technology Center (NITC). NFC uses NITC for certain
configuration management, contingency planning, maintenance, media protection, physical and
environmental protection, system and communication protection, and system and information integrity
control activities for its Human Capital Management System (commonly referred to as EmpowHR).
The accompanying description includes only the relevant control activities of NFC and its subservice
organizations other than NITC and does not include NITC control activities. Our examination did not
extend to NITC control activities, which were evaluated in our Statement on Auditing
Standards No. 70 audit for NITC.2

Our examination included procedures to obtain reasonable assurance about whether (1) the
accompanying description presents fairly, in all material respects, the aspects of NFC controls and the
controls of NFC subservice organizations that may be relevant to a customer agency’s internal control
as it relates to the audit of financial statements; (2) the controls included in the description were
suitably designed to achieve the control objectives specified in the description, if those controls were
complied with satisfactorily and customer agencies and subservice organizations applied the controls
contemplated in the design of NFC’s controls; and (3) such controls had been placed in operation as of
June 30, 2009. The control objectives were specified by NFC.

Our audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and the standards issued by the American Institute of
Certified Public Accountants. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

In our opinion, NFC’s description of controls in exhibit A presents fairly, in all material respects, the
relevant aspects of NFC controls and the controls of NFC subservice organizations that had been
placed in operation as of June 30, 2009. Also, in our opinion, the controls included in exhibit A were


2
 Audit Report No. 88501-13-FM, Statement on Auditing Standards No. 70 Report on the National Information Technology Center General
Controls Review – Fiscal Year 2009, issued September 2009.
USDA/OIG-A/11401-30-FM                                                                                                   Page 1
suitably designed to provide reasonable assurance that the specified control objectives would be
achieved if the described controls were complied with satisfactorily and customer agencies and
subservice organizations applied the controls contemplated in the design of NFC’s controls.

In addition to the procedures we considered necessary to render our opinion as expressed in the
previous paragraph, we applied tests to specific controls to obtain evidence about their effectiveness in
meeting the control objectives during the period from July 1, 2008, to June 30, 2009. The specific
controls and the nature, timing, extent, and results of our tests are identified in exhibit B. This
information will be provided to customer agencies of NFC and to their auditors to be taken into
consideration, along with information about the internal control at customer agencies, when making
assessments of control risk for customer agencies. In our opinion, the controls tested were operating
with sufficient effectiveness to provide reasonable, but not absolute, assurance that the control
objectives specified in the description of controls were achieved during the period from July 1, 2008,
to June 30, 2009.

The relative effectiveness and significance of specific controls at NFC and its subservice organizations,
and their effect on assessments of control risk at customer agencies, are dependent on their interaction
with the controls and other factors present at individual customer agencies. We have performed no
procedures to evaluate the effectiveness of controls at individual customer agencies as part of this
audit.

The description of controls at NFC and its subservice organizations is as of June 30, 2009, and
information about tests of the operating effectiveness of specific controls covers the period from
July 1, 2008, through June 30, 2009. Any projection of such information to the future is subject to the
risk that, because of change, the description may no longer portray the controls in existence. The
potential effectiveness of specific controls at NFC and its subservice organizations is subject to
inherent limitations and, accordingly, errors or fraud may occur and not be detected. Furthermore, the
projection of any conclusions, based on our findings, to future periods is subject to the risk that
changes may alter the validity of such conclusions. Finally, the accuracy and reliability of data
processed by NFC and the resultant reports ultimately rest with the customer agency and any
compensating controls implemented by such agency.

This report is intended solely for the management of NFC, its customer agencies, and their auditors.

/s/

Robert W. Young
Assistant Inspector General
 for Audit

September 17, 2009




USDA/OIG-A/11401-30-FM                                                                            Page 2
The subsequent sections of the report exhibit A (pages
3 through 27) and exhibit B (pages 28 through 43), are
not being publicly released due to the sensitive security
content.
